OFFICE OF INSPECTOR GENERAL


AUDIT OF THE U.S. AFRICAN
DEVELOPMENT FOUNDATION’S
FISCAL YEAR 2013
COMPLIANCE WITH THE
FEDERAL INFORMATION
SECURITY MANAGEMENT ACT
OF 2002
AUDIT REPORT NO. A-ADF-14-002-P
NOVEMBER 27, 2013
This is a summary of our report on the “Audit of the U.S. African Development Foundation’s
Fiscal Year 2013 Compliance With the Federal Information Security Management Act of 2002.”
The Federal Information Security Management Act of 2002 (FISMA) requires agencies to
develop, document, and implement an agency-wide information security program to protect their
information and information systems, including those provided or managed by another agency,
contractor, or other source. The act also requires agencies to have an annual assessment of
their information systems.

The Office of Inspector General (OIG) contracted with the independent certified public
accounting firm of Cotton & Company LLP to conduct the audit. Cotton was required to conduct
the audit in accordance with U.S. Government Auditing Standards. The objective was to
determine whether the U.S. African Development Foundation (USADF) implemented selected
minimum security controls for selected information systems to reduce the risk of data tampering,
unauthorized access to and disclosure of sensitive information, and disruptions to USADF’s
operations.

The audit concluded that USADF is in substantial compliance with FISMA and has developed
and documented the majority of the information security policies and procedures required under
FISMA. While USADF is in substantial compliance with FISMA, Cotton noted a number of
weaknesses in which either documented policy and procedures were inadequate or
management had a policy or procedure but was not following it.

Based on those weaknesses in USADF’s information security controls, OIG made
17 recommendations to help USADF strengthen its information security program. Management
decisions were made on all 17 recommendations.
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
